FEBRUARY 28, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     REVIEW OF NASA’S INTERNAL CONTROLS FOR
          AWARDS WITH SMALL BUSINESSES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-010 (ASSIGNMENT NO. A-12-015-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FAR          Federal Acquisition Regulation
FPDS-NG      Federal Procurement Data System–Next Generation
GAO          Government Accountability Office
HUBZone      Historically Underutilized Business Zone
OIG          Office of Inspector General
ORCA         Online Representations and Certifications Application
SBA          Small Business Administration


                                                                     REPORT NO. IG-13-010
FEBRUARY 28, 2013




                                                                                              OVERVIEW

                      REVIEW OF NASA’S INTERNAL CONTROLS
                       FOR AWARDS WITH SMALL BUSINESSES

                                                                                                The Issue

  The Small Business Act (the Act) authorized Federal agencies, including NASA, to “set-
  aside” contracts for small business firms or for small business owners who are members
  of socioeconomically disadvantaged groups.1 The Act established Government-wide
  programs to help small businesses obtain a fair proportion of Government contracts and
  created the Small Business Administration (SBA) to oversee the small business
  procurement process across Federal agencies. In fiscal year 2010, NASA obligated
  approximately $16.5 billion in procurements, $1.2 billion of which was obligated in
  5,513 small business contracts to acquire a variety of supplies and services such as
  sensors, flight tests, software licenses and support, and training.2

  Because small business firms may lack experience in Government contracting, there is a
  risk of firms proposing costs that are unallowable by the Federal Acquisition
  Regulation (FAR) or that firms could be ineffective in meeting contract performance
  requirements. Consequently, the programs supported by these small businesses are
  vulnerable to risks of unfair and unreasonable contract prices, substandard contractor
  performance, and fraud and abuse. In January 2012, the SBA issued guidance that
  described risks from fraud schemes common to small business programs.3 For example,
  a business official may falsely certify that the firm meets eligibility criteria as a small
  business or for a specific program such as socially and economically disadvantaged small
  business, woman-owned small business, or service-disabled veteran-owned small
  business.4 The false certification could allow an otherwise ineligible firm to obtain a
  benefit or Government contract unfairly.

  We initiated this audit to determine whether NASA implemented controls to manage
  risks of unfair and unreasonable contract prices, substandard contractor performance, and
  fraud and abuse by small business contractors. To accomplish our objectives, we

  1
      Congress originally passed the Small Business Act as the Small Business Investment Act of 1958. The
      Act has been amended and reauthorized several times since 1958. The most recent reauthorization was in
      December 2011.
  2
      The 5,513 small business contracts and corresponding dollar amount does not include grants or Small
       Business Innovation Research awards.
  3
      SBA Memorandum, “Investigating Fraudulent Statements Made to Obtain Contracts Set Aside for Small
      Businesses,” January 19, 2012.
  4
      Small business eligibility criteria limit a firm’s number of employees or annual revenue, by industry.



REPORT NO. IG-13-010
                                                                                                          OVERVIEW



     identified 626 small business awards made by NASA during fiscal year 2010 with
     individual values from $100,000 to $650,000. The total value of the 626 awards was
     approximately $160.7 million. From these, we statistically selected a random sample of
     67 with a total value of approximately $17.5 million. Details of the audit’s scope and
     methodology are in Appendix A.

     Results

     We found that NASA had adequate controls in place to establish fair and reasonable
     contract prices and oversee performance by small business contractors. Additionally, we
     found no indicators that ineligible firms had used eligible firms as pass-throughs or that
     firms had delivered goods or services that did not meet contract requirements.5

     However, of the 67 sampled awards, we identified 20 that were made to firms that self-
     certified as being owned and controlled by women. Of those 20, we found indications
     that 7 (35 percent) may have been to companies that falsely self-certified their eligibility
     as a woman-owned small business. This problem occurred because NASA procurement
     officials relied on a Government-wide self-certification process to determine whether
     firms were eligible as woman-owned small businesses.6 We believe the self-certification
     process warrants a Government-wide review and have referred our audit conclusions to
     the Government Accountability Office (GAO) and SBA for consideration.

     Contracting Officers Established Fair and Reasonable Contract Prices. In an initial
     sample of 20 awards, we found that all proposed costs were allowable, reasonable, and
     adequately supported. According to the FAR, procurement officials must obtain the type
     and quantity of data necessary to establish a fair and reasonable price and evaluate the
     reasonableness of the proposed price. Procurement files for the 20 awards contained a
     sufficient amount of supporting documentation to demonstrate that NASA procurement
     officials complied with FAR requirements. Based on the results of our initial sample, we
     elected not to review additional awards.

     Contractors Met Performance Requirements. In an initial sample of 20 awards, we
     found that NASA had established adequate performance oversight procedures, personnel
     followed those procedures, and contractors met contract requirements. According to
     FAR and NASA requirements, NASA personnel were required to conduct interim and
     final performance evaluations for contracts with a performance period exceeding one
     year and $100,000 in value.7 We found, for example, that NASA’s technical

     5
         In a typical “pass-through” scheme, a larger business uses an eligible small or socio-economically
         disadvantaged business to receive contracting opportunities set-aside for small businesses.
     6
         During fiscal year 2010, firms certified their eligibility as woman-owned small businesses in the
         Government-wide Online Representations and Certifications Application (ORCA) self-certification.
         Firms were required to complete the ORCA self-certification to receive federally funded small business
         awards.
     7
         FAR 42.15, “Contractor Performance Information.”



ii                                                                                         REPORT NO. IG-13-010
OVERVIEW



  representatives and product users monitored performance and communicated with
  contractors at least monthly through face-to-face meetings, telephone conversations, or
  emails. Additionally, all of the sampled contracts met actual performance, cost, schedule,
  and deliverable requirements. Based on the results of our initial sample, we elected not
  to review additional awards.

  Small Businesses had Indicators of Potential Fraud and Abuse. We found no
  indicators that ineligible firms had used eligible firms as pass-throughs or that firms had
  delivered goods or services that did not meet contract requirements. However, we
  identified signs that some contractors may have submitted false self-certifications.
  Specifically, 20 of the 67 sampled awards were made to woman-owned small businesses.
  Of these 20, we found indications that 7 (35 percent) were awarded to 6 different firms
  that may not have met the criteria for a woman-owned small business, namely that the
  business was at least 51 percent owned by one or more women and daily operations were
  controlled by one or more women.8 For each of the seven awards, the contractor certified
  that daily business operations were managed and controlled by a woman-owner.9
  However, in every instance, our review found evidence that daily business operations
  were actually controlled and managed by the male spouse of the purported business
  owner. For example, only the male spouse held the advanced degrees and technical
  expertise needed to manage and control the operations of a research and development
  company.

  When making a small business award, NASA procurement officials access the ORCA
  self-certification as the primary indicator of a firm’s eligibility as a woman-owned
  business. Agency personnel lack the resources and time for eligibility verification
  procedures that could add several hours to each procurement action and would not be cost
  efficient.

  We discussed the risk of false certification as a woman-owned business with SBA
  program officials who acknowledged the problem and stated that SBA has implemented
  controls to mitigate that risk. However, we believe that the level of false self-certification
  as a woman-owned business is troubling and may exist Government-wide. For example,
  we found that the six small businesses in our sample with indicators of false self-
  certification received approximately $74.5 million in contract obligations during fiscal
  year 2010 from 54 unique Federal procurement organizations, which may have overstated
  progress toward meeting woman-owned business contracting goals by the same amount.
  Therefore, based on the potential Government-wide effect of this condition, we have
  referred our audit conclusions to GAO and the SBA for possible review.




  8
      FAR 52.212-3, “Offeror Representations and Certifications – Commercial Items.”
  9
      Two of the seven awards were made to a single firm. We referred our findings to the NASA Office of
      Investigations for further review.



REPORT NO. IG-13-010                                                                                       iii
                                                                                        OVERVIEW



     Management Action

     Although we made no specific recommendations to NASA, we urged Agency officials to
     be aware of the fraud risks inherent in these programs and work with SBA and other
     Federal agencies to develop mitigation measures.

     The Associate Administrator for Small Business Programs agreed and stated that he
     recognized the need for vigilance regarding the fraud risks in these programs and that his
     office will work with strategic partners to develop risk mitigation measures.
     Management’s full response is reprinted in Appendix B.




iv                                                                         REPORT NO. IG-13-010
FEBRUARY 28, 2013




                                                              CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      NASA Had Adequate Controls to Assess Proposed Contract
        Prices and Monitor Contractor Performance ______________ 7
      Risk of False Self-Certification by Ineligible Firms ___________ 10

  APPENDIX A
      Scope and Methodology _______________________________           13
      Review of Internal Controls ____________________________        15
      Sampling Methodology ________________________________           15
      Prior Coverage ______________________________________           15

  APPENDIX B
      Management Comments ______________________________ 17

  APPENDIX C
      Report Distribution ___________________________________ 18




REPORT NO. IG-13-010
FEBRUARY 28, 2013




                                                                                     INTRODUCTION


Background

  The Small Business Act (the Act) authorizes Federal agencies to reserve or “set-aside” a
  proportion of their contracts for small businesses. Depending on the type of business
  they conduct, firms qualify for these set asides based on the number of people they
  employ or their annual revenue.10 In 2010, NASA obligated approximately $16.5 billion
  in procurements, $1.2 billion of which was obligated in 5,513 small business contracts to
  acquire a variety of supplies and services such as sensors, flight tests, software licenses
  and support, and training.11

  The Act also permits agencies to further classify small businesses into four sub-categories
  and to set goals for awarding a specific percentage of contracts to firms in these
  categories:

             Socially and Economically Disadvantaged Small Business. Requires that the
              firm’s owner belong to a socially disadvantaged group and meet income and
              wealth limits established by the Small Business Administration (SBA).

             Service-Disabled Veteran-Owned Small Business. Requires that a veteran with
              a service-connected disability own at least 51 percent of the business and
              personally manage and control its daily operations or, in the case of a veteran with
              permanent and severe disability, the spouse or permanent caregiver of such
              veteran.

             Woman-Owned Small Business. Requires that a woman or group of women
              own at least 51 percent of the business and manage and control daily operations.

             Historically Underutilized Business Zone (HUBZone). Requires that the firm’s
              principal office be located in, and at least 35 percent of its employees live in, an
              area designated as a HUBZone.

  These categories are not mutually exclusive. For example, a firm may qualify as both a
  woman- and veteran-owned business.



  10
        For example, firms that conduct research and development in the physical, engineering, and life sciences
       may have no more than 500 employees, and engineering services firms may have no more than
       $14 million in average annual revenue to qualify.
  11
       The number of contracts and dollar amount does not include grants or Small Business Innovation
       Research awards.



REPORT NO. IG-13-010                                                                                               1
                                                                                 INTRODUCTION



    Certification Process. The Act establishes procedures by which firms certify their
    overall eligibility as a small business as well as their eligibility for the sub-programs:
    woman- and service-disabled veteran-owned, disadvantaged, and HUBZone businesses.
    For the small business and woman- and service-disabled veteran-owned categories, firms
    only are required to self-certify their status in the SBA’s Online Representations and
    Certifications Application (ORCA) database (see Figure 1 below). Agency contracting
    officers rely on the information in the ORCA database to determine whether firms qualify
    for small business and woman- and veteran-owned programs.

        Figure 1. Small Business and Woman/Veteran-Owned Certification Process




    Source: NASA Office of Inspector General (OIG) analysis of program information

    A more formal application process exists for firms that seek to qualify as socially and
    economically disadvantaged or HUBZone small businesses. For these programs, firms
    self-certify, but are also required to complete an SBA application and submit additional
    documentation, such as tax returns or citizenship verification of the business owner. The
    SBA then reviews these materials and approves qualified firms for these programs (see
    Figure 2).




2                                                                         REPORT NO. IG-13-010
INTRODUCTION



                     Figure 2. Disadvantaged/HUBZone Certification Process




  Source: NASA OIG analysis of program information

  NASA’s Small Business Program. The Act and the Federal Acquisition Regulation
  (FAR) require Federal agencies to establish offices to develop, implement, and manage
  their small business programs. NASA created the Office of Small Business Programs to
  oversee its small business programs. The Office’s mission is to provide small businesses
  the maximum number of practicable opportunities to participate in NASA contracts and
  to monitor the Agency’s progress in meeting its small business contracting goals.

  Small Business Contracting Goals. The Act sets a Government-wide goal to award
  23 percent of prime contracts to small businesses. Working with the SBA, individual
  Federal agencies set annual goals for awards to small businesses generally, and to
  woman- and veteran-owned, disadvantaged, and HUBZone small businesses in particular.
  Agencies report information about their contract awards, including awards to small
  businesses, in the Federal Procurement Data System–Next Generation (FPDS-NG).12
  The SBA uses the information in this system to monitor and report on agencies’ progress
  toward meeting their small business contracting goals.

  12
       The FPDS-NG is the Government’s official system for collecting, developing, and disseminating
       procurement data. The database shows prime and subcontract awards by agency.



REPORT NO. IG-13-010                                                                                   3
                                                                                                   INTRODUCTION



    In 2010, SBA set goals for all small business eligible procurements: NASA was
    expected to award 15.9 percent to small businesses, 5 percent to small and disadvantaged
    businesses, 5 percent to woman-owned, 3 percent to HUBZone, and 3 percent to service-
    disabled veteran-owned small businesses. Table 1 illustrates NASA’s fiscal year 2010
    goals and results.

           Table 1: NASA’s Planned Small Business Goals and Results for 2010




    Source: NASA OIG analysis of program information


Risks of Fraud and Abuse

    Similar to other Federal Government programs, small business contracting may be
    vulnerable to fraud and abuse. For example, a Government Accountability Office (GAO)
    audit of socially and economically disadvantaged small business programs found that
    14 ineligible companies received $325 million in contracts.13 In some of these cases,
    company presidents made false statements such as underreporting income or assets or
    misrepresenting their ethnic identity. According to a 2012 letter from the SBA Office of
    Inspector General, false certifications are a major vulnerability for small business set-
    aside programs.14 In other cases, ineligible companies used certified firms as fronts or
    “pass-throughs” to secure contracts they otherwise could not obtain.15 Finally, as with
    13
         GAO, “8(a) Program: Fourteen Ineligible Firms Received $325 Million in Sole-Source and Set-Aside
         Contracts” (GAO-10-425, March 2010).
    14
         “Small Business Procurement Program Summaries for Federal Inspectors General,” January 2012.
    15
         In a typical “pass-through” scheme, a larger business uses an eligible small or socio-economically
         disadvantaged business to receive contracting opportunities set-aside for small businesses. Although the
         small business receives the contract, the small business often does little or no work on the contract.



4                                                                                         REPORT NO. IG-13-010
INTRODUCTION



  other types of Federal contracts, small business contractors may deliver goods or services
  that do not meet contract requirements.


Objectives

  We initiated this review to evaluate NASA’s oversight of contract awards to small
  businesses. Specifically, we determined whether controls were adequate for the Agency
  to (1) establish a fair and reasonable price for these awards; (2) oversee contractor
  performance; and (3) manage the risks of fraud and abuse.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-13-010                                                                           5
RESULTS




                              NASA HAD ADEQUATE CONTROLS TO ASSESS
                              PROPOSED CONTRACT PRICES AND MONITOR
                                           CONTRACTOR PERFORMANCE

             Our review of a statistically selected sample of 20 small business awards found that
             NASA had adequate controls in place to establish fair and reasonable contract prices
             and oversee contractor performance. Specifically, procurement officials properly
             applied proposal analysis to establish fair and reasonable contract prices and
             monitored contractor deliverables to ensure they met contract specifications.


Management Responsibility for Internal Controls

  According to the Federal Managers’ Financial Integrity Act of 1982 and the Office of
  Management and Budget Circular A-123, agency management is responsible for
  developing effective internal controls.16 Internal controls include the plans, methods, and
  procedures that management uses to meet missions, goals, and objectives. Well-designed
  internal controls provide effective and efficient operations; ensures reliable financial
  reporting; complies with laws and regulations; and safeguards assets from fraud and
  abuse. Moreover, the benefit of internal controls should outweigh the cost of
  implementing those controls. Federal agencies should consider both qualitative and
  quantitative factors when analyzing costs against benefits.


 Controls to Establish Fair and Reasonable Contract Prices

  According to the FAR, procurement officials are required to obtain the type and quantity
  of data necessary to establish a fair and reasonable price and to evaluate the
  reasonableness of the proposed price. We reviewed a sample of 20 small business
  awards valued at $4.3 million and found that NASA procurement officials appropriately
  used analytical techniques such as price analysis, cost analysis, and cost realism analysis
  to establish fair and reasonable contract prices. Examples of these techniques included
  the following:

            Price analysis is the review and evaluation of a proposed contract price without
             assessing individual cost elements and profit. We found that NASA procurement
             officials used this technique by ensuring that a sufficient number of firms
             submitted proposals and by selecting the proposal that provided the best overall
             value to the Government.


  16
       OMB Circular A-123, “Management’s Responsibility for Internal Control,” December 21, 2004.



REPORT NO. IG-13-010                                                                                7
                                                                                            RESULTS



              Cost analysis is the review and evaluation of individual cost elements and profit
               to determine a fair and reasonable contract price. We found evidence that NASA
               procurement officials used this technique to assess the reasonableness of proposed
               materials costs, travel costs, labor rates, indirect cost rates, and profit.

              Cost realism analysis is the independent review and evaluation of specific
               elements of a proposed cost estimate to assess whether those elements are realistic
               for the work to be performed and reflect a clear understanding of the
               requirements. We found that NASA procurement officials used this technique by
               asking Agency technical personnel to help assess whether proposed equipment
               costs were fair and reasonable.

    Based on the results of this sample, we concluded that NASA’s controls over small
    business awards were adequate to establish fair and reasonable contract prices. We also
    concluded that the review of additional sample items was not warranted.


Controls to Oversee Contractor Performance

    To test oversight controls, we reviewed procurement files and performance assessments
    and surveyed both NASA procurement personnel and product users.17 For all
    20 contracts in our sample, we found adequate controls were in place to oversee
    performance, NASA and contractor personnel followed those controls, and contractors
    met cost, schedule, and deliverable requirements. Specifically:

              According to FAR and NASA requirements, NASA personnel were required to
               conduct interim and final performance evaluations for contracts that have a period
               of performance over one year and exceed $100,000 in value.18 Twelve of the
               20 contracts we reviewed met this requirement. We found that NASA personnel
               conducted the required interim and final performance evaluations for all 12 of
               these contracts.

              NASA contracting officer technical representatives and product users took steps
               to ensure contractors met performance requirements. We found that NASA’s
               technical representatives and product users monitored contractor performance and
               communicated with contractors at least monthly through face-to-face meetings,
               telephone conversations, or emails. For example, on a contract for flight test
               services, NASA test directors participated in all flight tests conducted by the
               contractor to monitor the contractor’s performance. Similarly, on a software
               development contract, the NASA technical monitor reviewed the final product to
               verify that the software provided the required functionality and performed
               adequately.

    17
         We surveyed 19 technical representatives and 17 product users.
    18
         FAR 42.15 and NASA FAR Supplement, Subpart 1842.



8                                                                             REPORT NO. IG-13-010
RESULTS



         For the 20 sampled contracts, we compared cost, schedule, and deliverable
          requirements of the contract with the contractor’s actual performance and found
          100 percent of the contracts met requirements. NASA technical oversight
          personnel and product users assessed contractor performance from satisfactory to
          excellent on such factors as managing and controlling costs, adhering to the
          contract schedule, and conforming to the standards of good workmanship.

  Based on our findings of these 20 awards, we concluded that no further review of
  additional awards to oversee contractor performance was warranted.




REPORT NO. IG-13-010                                                                         9
                                                                                                        RESULTS




                                           RISK OF FALSE SELF-CERTIFICATION BY
                                                              INELIGIBLE FIRMS

                We reviewed a sample of 67 small business awards for indicators of fraud or abuse.
                We found no indications that ineligible firms had used eligible firms as “pass-
                throughs” to obtain contracts and no evidence of product substitution. However, we
                identified signs that some contractors may have submitted false self-certifications.
                Specifically, 20 of the 67 sampled awards were made to woman-owned small
                businesses. Of these 20, we found indications that 7 (35 percent) were awarded to
                6 different firms that may not have met the criteria for a woman-owned small
                business, namely that the business was at least 51 percent owned by one or more
                women and daily operations were controlled by one or more women.19 Although we
                were unable to determine how many of the firms actually were ineligible, these cases
                raise concerns about vulnerabilities in the program.

                NASA procurement officials relied on the Government-wide self-certification
                process to determine whether firms were eligible woman-owned small businesses
                and did not conduct additional inquiries to verify this status. Accordingly, we
                referred our findings and concerns about these cases to the GAO and SBA for their
                consideration.


No Indicators of the Use of Pass-Throughs or Product
  Substitution

     We reviewed information about each small business firm in our sample from technical
     performance reports, Federal databases, company websites, and other publicly available
     records. We then compared each firm’s 2010 ORCA self-certification to all other
     information we gathered about that business. We found no indicators that ineligible firms
     had used eligible firms as pass-throughs or that firms had delivered goods or services that
     did not meet contract requirements.


Indicators of Ineligibility

     Of the 67 small business awards we reviewed, 20 were made to firms that self-certified as
     being owned and controlled by women. Of these 20, we found indications that
     7 (35 percent) were awarded to 6 firms that may not have met the criteria for a woman-
     owned small business. Specifically, we found indications that the daily business


     19
          Two of the seven awards were made to a single firm. We referred our findings to the NASA Office of
          Investigations for further review.



10                                                                                      REPORT NO. IG-13-010
RESULTS



  operations of some of these firms were controlled and managed by the male spouse of the
  purported woman business owner. Examples of such evidence included:

         the male spouse was listed on the company website as President;

         the company name specifically identified the male spouse rather than the
          purported woman-owner;

         only the male spouse held the advanced degrees and technical expertise needed to
          manage and control the operations of a research and development company; and

         biographical information, company websites, and other publicly available records
          indicated that daily business operations were managed and controlled by the male
          spouse.


NASA Relied on the Government-wide Self-Certification Process

  In fiscal year 2010, before making a small business award, NASA procurement officials
  obtained and reviewed representations made by firms in their ORCA self-certification.
  For a firm purporting to be woman-owned, the self-certification included an attestation
  that the company was an eligible woman-owned small business in accordance with FAR
  requirements. When making a small business award, procurement officials access the
  ORCA self-certification as the primary indicator of a firm’s eligibility as a woman-owned
  business.

  According to NASA procurement officials and the Associate Administrator of the Office
  of Small Business Programs, procurement personnel lack the resources and time to
  perform verification procedures such as reviewing information about each firm from
  procurement databases, company websites, and other publicly available records. We
  agree that eligibility verification procedures could add several hours to each procurement
  action and would not be cost beneficial.

  In addition, as part of this review we discussed the risk of false certification as a woman-
  owned business with SBA officials. Program officials acknowledged the risk of false
  self-certification within small business programs and said they have taken several steps to
  mitigate these risks, including hiring a contractor to review documentation from firms
  that claim eligibility as a socially and economically disadvantaged small business or
  HUBZone small business. For firms that purport to be a woman-owned small business,
  SBA officials said they rely on competitor firms or contracting officers to bring
  allegations of potential fraud or abuse to their attention, and that they also examine a
  sample number of firms claiming to be woman-owned small businesses.

  During fiscal year 2010, the 6 small businesses in our sample with indicators of false self-
  certification received approximately $74.5 million in contract obligations from 54 unique
  Federal procurement organizations, which may have overstated their progress toward


REPORT NO. IG-13-010                                                                             11
                                                                                          RESULTS



     meeting woman-owned business contracting goals by the same amount. Because this is a
     Government-wide certification process managed by the SBA, we referred our findings to
     the SBA and GAO for their consideration.


 Conclusion

     We found that NASA had adequate controls in place to establish fair and reasonable
     contract prices and oversee contractor performance in its small business awards. In
     reviewing a sample of these awards for indicators of fraud and abuse, we found no
     evidence to suggest that ineligible firms had used eligible firms as pass-throughs or that
     firms delivered goods or services that did not meet contract requirements. However, we
     found indicators that caused us to question whether several of the firms that claimed to be
     woman-owned small businesses in fact met eligibility criteria.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     Although we did not offer any recommendations to NASA’s Office of Small Business
     Programs, in a draft of this report we urged Agency managers to remain wary of the fraud
     risks inherent in these programs and to work with SBA and other Federal agencies to
     develop risk mitigation measures. In addition, we referred our audit conclusions to GAO
     and SBA for their review.

     The Associate Administrator for Small Business Programs agreed and stated that he
     recognized the need to remain vigilant with respect to the fraud risks in these programs
     and would work with SBA and NASA’s Office of Procurement to develop appropriate
     risk mitigation measures. Management’s full response is reprinted in Appendix B.




12                                                                          REPORT NO. IG-13-010
APPENDIXES




                                                                                        APPENDIX A


Scope and Methodology

  We performed this audit from March 2012 through February 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  the audit objectives.

  In fiscal year 2010, NASA made 5,513 small business awards totaling approximately
  $1.2 billion. To reach a statistically reliable result given audit time and resource
  constraints, we limited our audit to the 626 small business awards made by NASA that
  had a value from $100,000 to $650,000.20 The total value of the 626 awards was
  approximately $160.7 million. From the 626 awards, we selected a statistical sample of
  67 for detailed review. The total value of the 67 awards in our sample was approximately
  $17.5 million.

  The objective of the audit was to evaluate NASA’s oversight of awards with small and
  disadvantaged businesses. Specifically, we determined whether controls were adequate
  to:

            establish a fair and reasonable price for small business awards;

            oversee contractor performance; and

            manage the risks of fraud and abuse in awards to small businesses.

  To determine whether controls were adequate to establish a fair and reasonable price for
  small business awards, we reviewed a statistically selected sample of 20 awards and
  performed the following procedures:

            reviewed FAR requirements pertaining to contract pricing and the allowability of
             costs;

            interviewed Agency procurement officials and officials in the NASA Office of
             Small Business Programs to identify procedures for reviewing and awarding small
             business contracts; and

  20
       Based on the results of our prior audits, we concluded that the awards most vulnerable to risk of
       unallowable and unsupported costs are those above the simplified acquisition threshold of $100,000 and
       below the $650,000 threshold that requires certified cost and pricing data.



REPORT NO. IG-13-010                                                                                            13
                                                                                    APPENDIX A



           obtained and reviewed procurement files to assess whether costs were allowable
            and properly supported.

     To determine whether controls were adequate to oversee contractor performance, we
     reviewed a statistically selected sample of 20 small business awards and performed the
     following procedures:

           reviewed regulations governing contractor performance information and
            management of service contract oversight, including the FAR and NASA policies;

           developed two surveys to address the oversight and performance conducted by
            NASA officials to determine if contractors met the Agency’s technical, cost, and
            schedule requirements;

           obtained and reviewed performance assessments and progress reviews to verify
            that NASA’s contracting officer technical representatives and product users
            prepared contractor performance evaluations; and

           interviewed NASA’s contracting officer technical representatives and product
            users to corroborate information obtained from procurement files and survey
            responses.

     To determine whether controls were adequate to manage the risks of small business fraud
     and abuse, we reviewed a statistically selected sample of 67 small business awards and
     performed the following procedures:

           obtained and reviewed information about each small business firm from the
            FPDS-NG, the SBA’s Dynamic Small Business Search, the Central Contractor
            Registration, the System for Award Management, the 2010 ORCA self-
            certification, company websites, and other publicly available records;

           interviewed Agency procurement officials to identify procedures for assessing
            whether a business is eligible for a small business award; and

           compared each firm’s 2010 ORCA self-certification to all other information we
            gathered about that business.

     Use of Computer-Processed Data. To evaluate NASA’s oversight of awards with small
     and disadvantaged businesses, we obtained and analyzed fiscal year 2010 data from the
     FPDS-NG. To assess the reliability of that data, we reviewed FPDS-NG system
     documentation and tested a statistical sample of data to identify obvious problems with
     completeness or accuracy. We concluded that the FPDS-NG data was valid and reliable
     for the purposes of meeting our audit objectives.




14                                                                        REPORT NO. IG-13-010
APPENDIX A



Review of Internal Controls

  We reviewed controls related to each objective as described under Scope and
  Methodology. The audit identified a high risk of small businesses falsely self-certifying
  their eligibility as a woman-owned business. We concluded that the high risk of false
  self-certification occurred because NASA procurement officials relied on the
  Government-wide self-certification process to determine whether firms were eligible
  woman-owned small businesses without performing additional steps to verify eligibility.
  Based on discussions with NASA procurement officials, we concluded that it would not
  be cost-effective for NASA to implement control procedures that address the high risk of
  false self-certification. Since the risk of false self-certification exists in the Government-
  wide self-certification process, we believe that process warrants a comprehensive
  Government-wide review and have referred our audit conclusions to GAO and the SBA
  for consideration.


Sampling Methodology

  We used a stratified sample design with the method of selection being simple random
  sample. From the sample of 626 small business awards made by NASA during fiscal
  year 2010 with individual award values from $100,000 to $650,000, we found 7 of the
  67 (10.4 percent) awards had indicators of false self-certification as a woman-owned
  small business.

  We evaluated simple random samples for attributes based on sample award (either passes
  or fails, depending on the audit substantive tests) and evaluated our variable data based
  on the dollar amount of the award that failed the substantive tests.


Prior Coverage

  During the past 5 years, the GAO and the Department of Defense Inspector General have
  issued 3 reports of particular relevance to the subject of this report. Unrestricted reports
  can be accessed over the Internet at http://www.gao.gov and
  http://www.dodig.mil/audit/reports, respectively.

  Government Accountability Office

  “Service-Disabled Veteran-Owned Small Business Program: Case Studies Show Fraud
  and Abuse Allowed Ineligible Firms to Obtain Millions of Dollars in Contracts”
  (GAO-10-108, October 2009)

  “8(a) Program: Fourteen Ineligible Firms Received $325 Million in Sole-Source and Set-
  Aside Contracts” (GAO-10-425, March 2010)



REPORT NO. IG-13-010                                                                               15
                                                                              APPENDIX A



     Department of Defense Inspector General

     “Inadequate Controls Over the DoD Service-Disabled Veteran-Owned Small Business
     Set-Aside Program Allow Ineligible Contractors to Receive Contracts”
     (DODIG-2012-059, February 2012)




16                                                                   REPORT NO. IG-13-010
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-010                         17
                                                                                 APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator of the Office of Small Business Programs
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




18                                                                      REPORT NO. IG-13-010
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Nora Thompson, Project Manager
   Jobenia Odum, Management Analyst
   James Pearce, Auditor
   Robert Rose, Auditor
   Arnold Pettis, Statistician




REPORT NO. IG-13-010                                                         19
                                                                                  FEBRUARY 28, 2013
                                                                        REPORT No. IG-13-010




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
